HHS/OIG-Audit-"Review of Overpayment Collections by Aid to Families With Dependent Children (AFDC) by the Colorado Office of Self-Sufficiency (OSS),"(A-08-02-03005)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Overpayment Collections by Aid to Families With Dependent
Children (AFDC) by the Colorado Office of Self-Sufficiency (OSS)," (A-08-02-03005)
February 19, 2002
Complete
Text of Report is available in PDF format (637 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report
provides you with the results of our review of overpayment collections made
for the former Aid to Families with Dependent Children (AFDC) program by
the State of Colorado Office of Self-Sufficiency (OSS).  The objective
of our review was to determine whether the OSS remitted the Federal share
of AFDC overpayment collections to the Federal government after the AFDC
program was repealed.  The OSS has sufficient systems in place to collect
and remit AFDC overpayments to the Federal government.  During the period
October 1, 1996 through June 30, 2001, the OSS remitted the Federal share
of AFDC overpayments totaling $6,062,672 to the U.S. Department of Health
and Human Services - Administration for Children and Families (ACF).  However,
payments were not always submitted quarterly as required.  The OSS also
made an adjustment to correct errors made calculating the Federal share of
the overpayment collections.  The OSS corrected the error with an adjustment
included in a regular quarterly payment.